BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in State of
West Virginia ex rel. June Yurish, Kristin Douty, and
Christina Lester v. The Honorable Laura V Faircloth,
Judge of the Circuit Court of Berkeley County, and the
State of West Virginia, was sent via Three Day Service
to the U.S. Supreme Court, and 3 copies were sent via
Three Day Service and e-mail to the following parties
listed below, this 1st day of February, 2021:
General Patrick Morrisey
WV Attorney General
W.VA. State Captiol Complex
Building 1, Room E-26
Charleston, WV 25305
(304) 55-2021
EMAIL UNAVAILABLE
Counsel for Respondents
Christian J. Riddell
Counsel of Record
329 S. Queen Street
Martinsburg, WV 25401
(304) 267-3949
stedmanriddell@gmail.com
Counsel for Petitioners

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

(800) 890.5001

Suite 102

www.beckergallagher.com

Cincinnati, Ohio 45249

I

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 1, 2021.

~~

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

